                    U.S. ENVIRONMENTAL PROTECTION AGENCY 

                    OFFICE OF INSPECTOR GENERAL 




                    American Recovery and
                    Reinvestment Act Site Visit of the
                    Diversion Ditch Repair Project at
                    the Gilt Edge Mine Superfund Site,
                    Lawrence County, South Dakota

                    Report No. 12-R-0601                    July 25, 2012




Scan this code to
learn more about
the EPA OIG.
Report Contributors:                               Allen Orand
                                                   Iantha Maness
                                                   Kevin Collins
                                                   Laura Bloss
                                                   Lela Wong




Abbreviations:

CFR           Code of Federal Regulations
DBA           Davis-Bacon Act
DOJ           U.S. Department of Justice
EPA           U.S. Environmental Protection Agency
FAR           Federal Acquisition Regulation
HBI           Hayward Baker, Inc.
OI            Office of Investigations
OIG           Office of Inspector General
PWT           Pacific Western Technologies
WA            Work Assignment


Cover photo: Diversion ditch repair in process at the Gilt Edge Mine Superfund Site in
             Lawrence County, South Dakota. (EPA OIG photo)




  Hotline
  To report fraud, waste, or abuse, contact us through one of the following methods:

  e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
  phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
  fax:       202-566-2599                                       Mailcode 2431T
  online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                               12-R-0601
                                                                                                          July 25, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Audit               American Recovery and Reinvestment Act Site Visit
The U.S. Environmental
                                    of the Diversion Ditch Repair Project at the Gilt Edge
Protection Agency (EPA)             Mine Superfund Site, Lawrence County, South Dakota
Office of Inspector General
audits projects funded by the        What We Found
American Recovery and
Reinvestment Act of 2009            PWT did not have adequate controls to ensure that its subcontractors and vendors
(Recovery Act). We selected         complied with the Buy American and Davis-Bacon Act (DBA) provisions of the
the Gilt Edge Mine Superfund        Recovery Act. Non-American-made steel grouting pipes were used in the project.
Site project in Lawrence            As a result, we questioned $349,635 in costs incurred under the project,
County, South Dakota, for           consisting of ineligible pipe costs of $88,712 and unsupported field inspection
audit. The purpose of this audit    costs of $260,923. Also, PWT did not verify whether subcontract vendor
was to determine compliance         employees who worked at the site were paid according to DBA requirements.
with selected Recovery Act          These Recovery Act requirements were incorporated into both the prime contract
requirements.                       and the subcontract, and apply to not only the contractor and subcontractor but to
                                    second-tier subcontractors and vendors.
Background                          The lack of control was due to PWT employees not being trained on contract
                                    terms and conditions, including Recovery Act requirements. PWT representatives
EPA provided $2,935,228 in
                                    also said that the company did not have policies and procedures to require
Recovery Act funding for
                                    inspection of all materials for Buy American compliance, and PWT employees
Pacific Western Technologies
                                    did not understand that DBA requirements applied to vendor employees.
(PWT) to hire a subcontractor
                                    PWT subsequently established material inspection procedures in response to the
to perform the drilling and
                                    Buy American noncompliance. PWT also started the review process to verify
grouting portion of the
                                    subcontractor and vendor compliance with DBA requirements.
diversion ditch repair at the
site. The funding was provided      PWT accurately reported the number of jobs created and retained due to
through a work assignment           Recovery Act funding, and PWT’s procurement of the subcontractor for the
under PWT’s existing remedial       project was in accordance with the federal requirements and contract terms and
action contract.                    conditions.

                                     Recommendations and Planned Corrective Actions

                                    We recommend that EPA’s Director, Office of Acquisition Management, Office
                                    of Administration and Resources Management, advise the contracting officer to
                                    designate the grouting pipe cost of $88,712 as ineligible costs and to reduce the
                                    funding for the project accordingly. We also recommend that the Director
                                    disallow and recover PWT field inspection costs.
For further information, contact
our Office of Congressional and     PWT indicated it is working with the contracting officer to deobligate $88,712
Public Affairs at (202) 566-2391.   from the project. The contactor proposed, and EPA accepted, $2,551 as the
The full report is at:              amount of ineligible field supervision costs relating to Buy American compliance
www.epa.gov/oig/reports/2012/       monitoring. However, while this is all that can be collected based on EPA’s
20120725-12-R-0601.pdf              actions, we do not believe the contracting officer’s determination identified all
                                    ineligible field supervision costs.
                     UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                      THE INSPECTOR GENERAL




                                             July 25, 2012

MEMORANDUM

SUBJECT:	 American Recovery and Reinvestment Act Site Visit of the
          Diversion Ditch Repair Project at the Gilt Edge Mine Superfund Site,
          Lawrence County, South Dakota
          Report No. 12-R-0601


FROM:	          Arthur A. Elkins, Jr.

TO:	            John Bashista
                Director, Office of Acquisition Management
                Office of Administration and Resources Management


This is our report on the subject site visit conducted by the Office of Inspector General (OIG) of
the U.S. Environmental Protection Agency (EPA). The report contains findings that describe the
problems the OIG has identified and corrective actions the OIG recommends. This report
represents the opinion of the OIG and does not necessarily represent the final EPA position. EPA
managers in accordance with established audit resolution procedures will make the final
determination on matters in this report.

Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 120 calendar days, or by November 26, 2012. You should include a corrective
action plan for agreed-upon actions, including milestone dates. Your response will be posted on
the OIG’s public website, along with our memorandum commenting on your response. Your
response should be provided as an Adobe PDF file that complies with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. The final response
should not contain data that you do not want to be released to the public. If your response
contains such data, you should identify the data for redaction or removal. We have no objection to
the further release of this report to the public. This report will be available at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Melissa Heist,
Assistant Inspector General for Audit, at (202) 566-0899 or heist.melissa@epa.gov; or
Robert Adachi, Product Line Director, at (415) 947-4537 or adachi.robert@epa.gov.
American Recovery and Reinvestment Act Site Visit                                                                              12-R-0601
of the Diversion Ditch Repair Project at the Gilt Edge Mine
Superfund Site, Lawrence County, South Dakota


                                      Table of Contents 

   Introduction .................................................................................................................      1


           Purpose ................................................................................................................    1     

           Background ..........................................................................................................       1     

           Scope and Methodology ......................................................................................                2


   Summary of Results ..................................................................................................               3


           Buy American Compliance ..................................................................................                  3

           Davis-Bacon Act Compliance...............................................................................                   7

           Recovery Act Reporting Requirements ................................................................                        8

           Subcontract Procurement Requirements .............................................................                          8

           Recommendations ...............................................................................................             9     

           Contractor Comments and OIG Evaluation..........................................................                            9


   Status of Recommendations and Potential Monetary Benefits..............................                                            11 




Appendices
   A       Contractor Comments on the Draft Report......................................................                              12 


   B       Distribution .........................................................................................................     17

                                   Introduction 

Purpose
            The purpose of our audit was to determine whether Pacific Western Technologies
            (PWT) and its subcontractors complied with selected requirements under the
            American Recovery and Reinvestment Act of 2009 (Recovery Act) in the
            performance of the diversion ditch repair project at the Gilt Edge Mine Superfund
            Site in Lawrence County, South Dakota. We also evaluated PWT’s procurement
            of its subcontractor to ensure compliance with federal requirements.

Background
            The President signed the Recovery Act on February 17, 2009. The purpose of the
            Recovery Act as it applies to the U.S. Environmental Protection Agency (EPA) is
            to preserve and create jobs, promote economic recovery, and invest in
            environmental protection that will provide long-term economic benefits. The
            Recovery Act provided EPA with $600 million for the Superfund remedial
            program. EPA uses this funding to support new and ongoing projects at various
            National Priorities List Superfund sites.

            The Gilt Edge Mine Superfund Site is a former gold mining site located about
            5 miles east of Lead, South Dakota. It was added to the National Priorities List on
            December 1, 2000, and consists of three operable units. The Recovery Act project
            we audited is part of Operable Unit 3, the Ruby Gulch Waste Rock Repository.

            The Gilt Edge Mine Superfund Site was contaminated with acid waste from the
            former mining operations. Acid rock drainage from the site posed a major threat
            to nearby waterways. EPA initially addressed the threat by capping the repository
            and installing surface water drainage diversion ditches.

            Subsequent testing revealed that many of the diversion ditches were leaking.
            EPA, in consultation with the South Dakota Department of Environment and
            Natural Resources, decided to repair the leakage by drilling and pressure grouting
            the fractured areas in the diversion ditches, and covering the ditches with
            geomembrane liners to reduce or eliminate surface water infiltration. Recovery
            Act funding was allotted for PWT to hire a subcontractor for the drilling and
            grouting portion of the project.

            EPA Region 8 has an ongoing remedial action contract with PWT, Contract No.
            EP-W06-006. The region modified the contract on May 4, 2009, to incorporate
            the Recovery Act requirements and on May 28, 2009, to obligate the Recovery
            Act funds.




12-R-0601                                                                                   1
            Under the contract, the region issues work assignments (WAs). Region 8 issued
            WA08 to PWT on April 4, 2008, for all remedial actions at the Ruby Gulch Waste
            Rock Repository. On May 28, 2009, the region reissued the subcontract portion of
            the drilling and grouting work under WA014 with Recovery Act funds. On
            July 10, 2009, PWT awarded a fixed-unit-price agreement/subcontract to
            Hayward Baker, Inc. (HBI), for $2,935,228, to perform the drilling and pressure
            grouting activities.

            All remaining remedial action work at Ruby Gulch will continue to be funded
            under WA08 with the regular Superfund appropriation (i.e., non-Recovery Act
            funding). PWT’s work at the site includes preparing work plans, procuring
            subcontractors, performing field oversight, managing the project, and providing
            technical engineering services.

Scope and Methodology
            We conducted this performance audit in accordance with generally accepted
            government auditing standards. Those standards require that we plan and perform
            our audit to obtain sufficient, appropriate evidence to provide a reasonable basis
            for our findings and conclusions based on our objectives. We believe that the
            evidence obtained provides a reasonable basis for our findings and conclusions
            based on our objective.

            We conducted our field work between August 30, 2010, and January 19, 2012.
            The field work included an initial unannounced site visit to the project and
            subsequent visits to corporate offices of PWT and HBI to review documentation
            and obtain an understanding of the controls PWT had in place to ensure that
            activities under the project complied with the Recovery Act requirements and
            federal procurement regulations. Specifically, we performed the following
            procedures:

               1.	 Toured the project

               2.	 Interviewed the EPA contracting officer and project officer, and contractor
                   and subcontractor personnel

               3. 	 Reviewed records maintained by the contractor and subcontractor to verify
                    that activities under the project complied with the following requirements:

                           a.	 Buy American requirements under Recovery Act Section 1605
                           b.	 Davis-Bacon Act (DBA) wage requirements under Recovery
                               Act Section 1606
                           c.	 Reporting requirements under Recovery Act Section 1512
                           d.	 Federal regulations applicable to the procurement of the
                               subcontractor for the Recovery Act project




12-R-0601                                                                                     2
                            Summary of Results 

            Our audit disclosed that PWT did not have adequate controls to ensure that its
            subcontractors and vendors for drilling and grouting comply with the Buy
            American and DBA provisions of the Recovery Act. As a result, ineligible
            grouting pipe costs of $88,712 were incurred under the project. In the draft report,
            we also identified $260,923 of unsupported field inspection costs. Subsequently,
            the contracting officer determined that $2,551 of the field inspection costs were
            ineligible. Further, we did not find evidence that all laborers and mechanics who
            worked at the site were paid in accordance with DBA requirements. PWT
            accurately reported the number of jobs created and retained by the Recovery Act
            funding, and PWT’s procurement of the subcontractor for the project was in
            accordance with the federal requirements and contract terms and conditions.

   Buy American Compliance
            PWT did not have adequate controls to ensure that its subcontractor for drilling
            and grouting complied with the Buy American requirements of the Recovery Act.
            Although these requirements were in the terms and conditions of the contract with
            EPA and in the subcontract with HBI, we found that non-American-made steel
            grouting pipes were used in the project.

            Recovery Act Section 1605 states that no Recovery Act funds may be used to
            construct, alter, maintain, or repair a public building or public work unless all of
            the iron, steel, and manufactured goods used in the project are produced in the
            United States. To use foreign-made construction materials, the contractor must
            apply for, and receive, a waiver from the government. The written justification for
            the waiver must be published in the Federal Register.

            To implement this requirement, the following Federal Acquisition Regulation
            (FAR) clauses, derived from the Code of Federal Regulations (CFR), were
            included in the terms and conditions of the PWT contract and HBI subcontract:

               	 Title 48 CFR 52.225-21—Required Use of American Iron, Steel, and
                  Other Manufactured Goods – Buy American Act – Construction Materials

               	 Title 48 CFR 52.225-22—Notice of Required Use of American Iron,
                  Steel, and Other Manufactured Goods – Buy American Act – Construction
                  Materials

            These clauses reiterate the requirements in Recovery Act Section 1605. Thus,
            both PWT and HBI are subject to the Buy American requirements.




12-R-0601                                                                                    3
            During our unannounced site visit to the project on August 30, 2010, we found
            that grouting pipes made in Taiwan and Korea were used in the project without
            EPA’s approval or waiver, contrary to the Buy American requirement.




            Grouting pipes labeled Taiwan.             Grouting pipes labeled Made in Korea.
            (EPA OIG photo)                            (EPA OIG photo)


            The noncompliance was due to the lack of training for PWT’s field employees on
            contract terms and conditions, including Recovery Act requirements. The
            noncompliance was also due to the lack of policies and procedures requiring
            inspection of all materials for Buy American compliance. According to PWT, at
            the time, inspectors only conducted spot checks of the materials delivered to the
            site.

            Settlement Agreement

            We notified the Office of Inspector General’s (OIG’s) Office of Investigations
            (OI) about the issue on August 31, 2010. OI special agents visited the site on
            September 2, 2010, and confirmed the Buy American noncompliance. OI referred
            the noncompliance to the U.S. Department of Justice (DOJ) and worked with DOJ
            to pursue a civil claim against HBI, the subcontractor responsible for purchasing
            and installing the non-American-made pipes.

            On May 9, 2011, HBI entered into a settlement agreement with DOJ. The
            government alleged that HBI failed to purchase domestic steel pipes for the
            project from the inception of the subcontract on July 10, 2009, to September 30,
            2010, in violation of Recovery Act requirements. HBI did not admit liability, but
            agreed to pay the settlement amount of $120,216.

            In the settlement agreement, the government acknowledged that HBI already
            repaid $73,296 by way of funds withheld from its subcontract performance. HBI
            was required to pay the remaining $46,920 according to DOJ’s instruction within
            10 days of the agreement.

            Under the agreement, the government would release HBI from any civil or
            administrative monetary claim under the False Claims Act; Program Fraud Civil


12-R-0601                                                                                      4
                 Remedies Act; or the common law theories of breach of contract, payment by
                 mistake, unjust enrichment, and fraud. The agreement reserved a number of
                 releases of claims, including Internal Revenue Service tax liabilities and
                 administrative liabilities such as suspension and debarment.

                 Corrective Actions

                 Based on an OI briefing of Region 8 officials on the Buy American
                 noncompliance, EPA issued a stop work order on September 2, 2010. The stop
                 work order was lifted on September 7, 2010, due to programmatic
                 considerations.1 However, no grouting, pipe installation, or work in areas where
                 existing grouting pipes were installed was performed until PWT received written
                 notice to continue performance from the contracting officer on October 12, 2010.

                 As a condition for lifting the stop work order, the contracting officer directed
                 PWT to prepare a corrective action plan to address the noncompliance. On
                 September 8, 2010, PWT and HBI conducted inventories of stockpiled materials
                 on site. They identified the pipes as of foreign, unknown, or American origin. The
                 pipes labeled “unknown” were those that PWT could not confirm as melted and
                 manufactured in the United States. Stockpiled materials not labeled “American”
                 were either removed from the site or marked “Don’t Use.”

                 PWT submitted the draft corrective action plan to EPA for review on
                 September 10, 2010. A final corrective action plan was submitted to and was
                 accepted by the contracting officer on September 20, 2010. The corrective action
                 plan included the following:

                         Procedures PWT implemented to ensure that, going forward, only
                          American-made materials will be used for the project
                         PWT’s comparison of the cost and impact of removing the materials from
                          the project versus retaining them

                 Title 48 CFR 25.607 requires the contracting officer to take appropriate action if
                 foreign construction material is used without authorization. These actions include
                 determining whether the foreign-made construction material should be removed
                 and replaced. If removal and replacement is impracticable, would cause undue
                 delay, or would otherwise be detrimental to the interests of the government, the
                 contracting officer may determine in writing that the foreign-made material need
                 not be removed and replaced.

                 In accordance with 48 CFR 25.607, the contracting officer issued a written
                 determination on October 12, 2010, to retain all pipes used in the completed work
                 and permit PWT to continue work with materials that comply with the Buy
                 American requirement. The determination explained that removal and
1
 These considerations include weather factors that did not allow work at the site to proceed from November to May,
and the requirement to expend Recovery Act funds by September 30, 2011.


12-R-0601                                                                                                      5
            replacement of the foreign-made and unknown-origin pipes would not be in the
            government’s best interest for the following reasons:

                  Cost for removal and replacement of the pipes would be unreasonable
                   when compared to the cost of the noncompliant material.
                  Leaving the completed work in place would avoid prolonged delays in the
                   completion of the project.
                  The activities involved with removing the existing pipe would increase the
                   risk of serious injury to the employees.
                  Removing the existing grouting pipe would compromise the drilling and
                   grouting remedy completed to date.

            The determination also clarified that the contracting officer’s action did not
            constitute an exception to Section 1605 of the Recovery Act. However, the
            determination did not include a decision regarding the costs for the pipes. The
            contract officer stated that the costs are being held by PWT until final resolution
            of the matter.

            Costs Associated With the Buy American Noncompliance

            In the invoice for the period ending August 29, 2010, PWT identified and credited
            EPA for all pipes purchased and invoiced by HBI under the project, totaling
            $88,712. The $88,712 represents the $73,296 recognized in the settlement
            agreement and additional grouting pipe costs of $15,416 included in the August
            2010 invoice.

            In our opinion, the $88,712 is an ineligible cost under the project due to the Buy
            American noncompliance. The contracting officer should formally notify PWT
            that this cost is ineligible and reduce the funding for WA014 by $88,712.

            In addition, we believe that a portion of PWT’s construction field supervision
            costs should be disallowed. Under WA08, Subtask 3.5.2, Construction Field
            Supervision, PWT is required to assure that field work is completed in accordance
            with the design and all subcontract document requirements. The Buy American
            requirement is part of the subcontract documents, and PWT did not adequately
            monitor the subcontractor’s work to ensure compliance. According to its cost
            records, PWT incurred total construction field supervision costs of $260,923 as of
            the end of August 2010, when we discovered the Buy American noncompliance.
            A portion of the $260,923 was for Buy American compliance monitoring;
            however, PWT did not provide us the data to identify that portion prior to the
            issuance of the draft report. As a result, we initially questioned all construction
            field supervision costs incurred as of August 2010 as unsupported costs.
            Subsequently, PWT proposed $2,551 as the estimated ineligible field supervision
            costs relating to Buy American compliance monitoring. The contracting officer
            accepted this amount and PWT repaid it to EPA in February 2012.




12-R-0601                                                                                     6
   Davis-Bacon Act Compliance
            PWT did not have adequate controls to ensure that all laborers and mechanics
            who work at the site were paid in accordance with DBA wage requirements. We
            obtained a listing of the vendors HBI used for the project, and performed a
            cursory review of the invoice descriptions for goods and services provided by
            each vendor, to identify vendors that may be subject to DBA requirements. We
            found that one of the vendors providing cement for the project had a truck driver,
            a cement pumper operator, and a quality control person working on site for
            several hours at a time between July 8, 2011, and August 30, 2011. The vendor
            did not submit certified payroll reports, and PWT did not verify that the
            employees were paid at least DBA wage rates for the hours worked on site.

            Section 1606 of the Recovery Act requires that all laborers and mechanics employed
            by contractors and subcontractors on projects funded directly by or assisted in whole
            or in part by the Recovery Act be paid wages at rates not less than DBA rates. The
            DBA requirement was included in the PWT contract and the HBI subcontract.

            Section H.43 of the PWT contract requires PWT to include the DBA wage
            requirements in all construction subcontract solicitations exceeding $2,000.
            Subtask 3.4.2 under WA008 requires PWT to monitor subcontractor compliance
            with DBA and related requirements.

            HBI subcontract Section 3.0 incorporated the following DBA-related FAR clauses
            by reference:

               	 Title 48 CFR 52.222-6 establishes the same DBA requirements as
                  Section 1606 of the Recovery Act.
               	 Title 48 CFR 52.222-8 requires the prime contractor to submit weekly
                  certified payroll to the contracting officer for each week in which any
                  contract work is performed. The FAR clause further states that the prime
                  contractor is responsible for the submission of certified payrolls by all
                  subcontractors.
               	 Title 48 CFR 52.222-11 requires the prime contractor to insert the DBA
                  clauses in all construction subcontracts and makes the prime contractor
                  responsible for compliance by any subcontractor or lower-tier
                  subcontractors.
               	 Title 48 CFR 52.222-13 incorporated all rulings and interpretations of
                  DBA and related requirements in 29 CFR Parts 1, 3, and 5, by reference.

            Contrary to the requirements stated above, PWT did not submit weekly certified
            payrolls for the subcontractor vendor, or verify that the employees were paid
            according to the DBA requirements.

            This issue was discussed with PWT and the contracting officer during our field
            work. The contracting officer concurred with our finding. A PWT representative
            explained that PWT did not include vendors in its initial DBA compliance review


12-R-0601                                                                                   7
            because the DBA requirements were not clear. PWT interpreted DBA
            requirements as applying to subcontractors and not vendors. Title 29 CFR Part 5
            was incorporated into 48 CFR 52.222-13 by reference, as stated above. According
            to 29 CFR 5.2(j), work relating to furnishing of materials, such as providing
            cement, is included in the DBA labor standards. We provided PWT with a DBA
            guidance document issued by the U.S. Department of Labor. The guidance
            document clarified that DBA requirements apply to truck drivers if the hours
            worked are more than de minimis, which is defined in the document as “a few
            minutes at a time merely to pick up or drop off materials.” We explained that the
            vendor employees (truck driver, cement pumper operator, and quality control
            employee) worked at the site several hours at a time. The vendor employees were
            not there to merely drop off materials; they operated the equipment to pour the
            concrete. Therefore, hours worked were more than de minimis, and the DBA
            requirements apply. PWT did not provide its position on the issue, but stated that
            it has started the review process to verify compliance.

            We identified this instance of noncompliance from a cursory review of selected
            invoices. We did not review all vendor invoices for the project. PWT is
            responsible for ensuring that all lower-tier subcontractors and vendors, not just the
            vendor cited above, comply with the DBA requirement. Further, the DBA
            provisions are regular requirements under PWT’s ongoing Superfund remedial
            action contract and apply to all construction projects for the duration of the
            contract, regardless of funding source. The contract is currently in the second year
            of its 5-year option period. PWT needs adequate controls to ensure DBA
            compliance for all future work.

   Recovery Act Reporting Requirements
            We reviewed the Recovery Act Section 1512 reports submitted by PWT for the
            quarters ending March 31, 2010, and September 30, 2010. PWT properly
            calculated and reported the number of jobs created and retained.

   Subcontract Procurement Requirements
            The process PWT used to procure the subcontractor, HBI, for the drilling and
            pressure grouting activities was consistent with the method approved by EPA in the
            work plan and met the federal and contract requirements. Section I.9 of the contract
            requires PWT to follow the competition requirements in 48 CFR 52.244-5 for
            subcontracting. The regulation requires contractors to select subcontractors on a
            competitive basis to the maximum practical extent, consistent with the objectives
            and requirements of the contract. PWT used an invitation-to-bid method to procure
            the subcontractor for the project. This method was detailed in the work plan and
            later in the subcontract consent. EPA’s approval of the work plan and the
            subcontract consent represent the contracting officer’s determination that PWT’s
            procurement method would provide competition to the maximum practical extent
            under the circumstance.


12-R-0601                                                                                     8
   Recommendations
            We recommend that the Director, Office of Acquisition Management, Office of
            Administration and Resources Management:

               1.	 Disallow and recover PWT field inspection costs of $2,551.

               2.	 Advise the contracting officer to designate the grouting pipe costs of
                   $88,712 as ineligible costs under the contract and reduce the project
                   funding accordingly.

               3.	 Require PWT to ensure that PWT staff are trained on contract terms and
                   conditions, including Recovery Act requirements.

               4.	 Require PWT to verify that all subcontractors and vendors comply with
                   DBA requirements.

   Contractor Comments and OIG Evaluation
            We received draft report comments from PWT on February 17, 2012. PWT
            provided additional clarification and documentation on February 22, 2012, based
            on our request. We held exit conferences with PWT and EPA on February 28,
            2012, to discuss PWT’s draft report comments and their impact on our final
            report.

            PWT did not agree or disagree with our findings and recommendations. Instead, it
            cited the corrective actions taken to address our recommendations. PWT’s
            comments and corrective actions taken are summarized below, along with OIG’s
            evaluation of these comments and corrective actions:

            1) In the draft report, we recommended disallowing and recovering PWT field
               inspection costs of $260,923. In response to the recommendation, PWT
               proposed $2,551 as the ineligible construction field supervision costs for the
               Buy American noncompliance. The contracting officer accepted this amount on
               January 9, 2012, and PWT repaid the amount to EPA in February 2012. As a
               result, PWT has addressed the recommendation in the draft report. We have
               modified the recommendation to reflect the amount of the contracting officer’s
               determination and we consider the recommendation closed.

               Although the actions taken by the contracting officer and PWT have addressed
               this recommendation, we do not believe that the contracting officer’s decision
               identified all ineligible field supervision costs. The $2,551 only accounts for the
               estimated time required for the initial shipment inspections. It does not include
               the time the site superintendents spent onsite daily to oversee the project. The
               adequacy of the resident inspection services for every day the noncompliant
               materials were on the job site is questionable. The site superintendents should


12-R-0601                                                                                    9
               have identified the noncompliances even if they were missed during the
               shipment inspections. We believe that, at a minimum, a portion of those
               employees’ time for every day the noncompliant materials were on the job site
               should also be disallowed.

               During the exit conference, PWT explained that the $2,551 proposed as
               ineligible construction field supervision costs represents its best estimate of the
               costs that would have been incurred had PWT followed the material inspection
               procedures it implemented in response to the noncompliance (i.e., reasonable
               value for the inspection that PWT should have performed). PWT explained that
               the estimate included the time that would have been required by the site
               superintendent/construction foreman, mid-level engineer, senior engineer, and
               program manager to conduct the shipment inspections and manage the
               documentation. PWT’s view is that once the material shipments are inspected
               according to procedure to ensure compliance with the Buy American
               requirement, there would be no need to further inspect them as part of daily
               oversight.

               Contrary to PWT, we believe multiple controls should be implemented to
               ensure compliance. These controls should include shipment inspections as
               well as daily project oversight. In addition, PWT’s assertion assumes that
               adequate controls were in place and the cost of adequate controls were of a
               prospective nature. However, as explained above, adequate controls were not
               in place and there is no way to determine whether the shipment inspections
               would have been able to identify and eliminate the noncompliance.

            2) In response to recommendation 2, PWT stated that it received formal
               notification from the contracting officer to withhold the $88,712 and reduce
               project funding by this amount. PWT is currently working with the
               contracting officer to deobligate the $88,712 from the project. We agree with
               PWT’s pending actions. However, this recommendation is not resolved until
               the $88,712 is deobligated from the project.

            3) In response to recommendation 3, PWT stated that it has documented the
               training requirements in its policies and procedures and has held training
               sessions regarding contract terms and conditions. PWT’s corrective actions
               addressed our recommendation.

            4) In response to recommendation 4, PWT stated that it has verified the certified
               payrolls and supporting documentation submitted by the construction
               contractor and all the lower-tier subcontractors and vendors, including the
               cement pumper operator, to ensure compliance with DBA requirements.
               PWT’s corrective actions addressed our recommendation.

            PWT’s complete response to the draft report is included as appendix A of this
            report.



12-R-0601                                                                                     10
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                  POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                      Planned
    Rec.    Page                                                                                                     Completion   Claimed    Agreed To
    No.      No.                          Subject                        Status1          Action Official               Date      Amount      Amount

     1        9     Disallow and recover PWT field inspection costs of      C      Director, Office of Acquisition    02/16/12                  $2.6
                    $2,551                                                            Management, Office of
                                                                                        Administration and
                                                                                     Resources Management

     2        9     Advise the contracting officer to designate the         U      Director, Office of Acquisition                             $88.7
                    grouting pipe costs of $88,712 as ineligible costs                Management, Office of
                    under the contract and reduce the project funding                   Administration and
                    accordingly.                                                     Resources Management

     3        9     Require PWT to ensure that PWT staff are trained        C      Director, Office of Acquisition    02/17/12
                    on contract terms and conditions, including                       Management, Office of
                    Recovery Act requirements.                                          Administration and
                                                                                     Resources Management

     4        9     Require PWT to verify that all subcontractors and       C      Director, Office of Acquisition    02/17/12
                    vendors comply with DBA requirements.                             Management, Office of
                                                                                        Administration and
                                                                                     Resources Management




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-R-0601                                                                                                                                              11
                                                                                   Appendix A

         Contractor’s Comments on the Draft Report

February 17, 2012

Ms. Lela Wong
EPA OIG – Office of Audit
75 Hawthorne Street, 7th Floor, Mail Code IGA-1
San Francisco, CA 94105

Subject: 	 American Recovery and Reinvestment Act Site Visit of Diversion Ditch Repair
           Project at the Gilt Edge Mine Superfund Site, Lawrence County, South Dakota

Dear Ms. Wong:
Pacific Western Technologies, Ltd. (PWT) has reviewed the Draft Report of the Office of
Inspector General (OIG), US Environmental Protection Agency, titled “American Recovery
and Reinvestment Act Site Visit of Diversion Ditch Repair Project at the Gilt Edge Mine
Superfund Site, Lawrence County, South Dakota”, dated January 19, 2012. PWT appreciates
the opportunity to comment and respond to the draft report. PWT believes that the report and
the findings should be revised as described below and offers the following additional
information to be considered by the USEPA Office of Inspector General before the site visit
report is published as a final report for general circulation.

I.	 Summary of Results (Page 3)
    A. The first sentence of this section states, “…PWT did not have adequate controls to ensure
       that its subcontractors and vendors for drilling and grouting comply with Buy American
       and DBA provisions of Recovery Act.”

       RESPONSE: As the OIG acknowledges, PWT caused the subcontracts entered into for
       the Gilt Edge project to include all appropriate language and flow-down requirements for
       the Buy American and Davis-Bacon Wage Act (DBA) provisions of the American
       Recovery and Reinvestment Act (Recovery Act) of 2009.
       o	 Buy American Provisions: PWT utilizes usual and customary internal and external
          operational controls in the field to cause compliance with the Buy American
          provisions of the Recovery Act. PWT recognizes that in this case controls could be
          improved; however, PWT was in good faith at all times. Continuous improvement is
          a normal characteristic of any company’s operations and PWT did take immediate
          steps to improve its internal controls.
            PWT’s subcontracts are unequivocal and unambiguous, making clear the
            responsibility of the construction contractor to ascertain and cause compliance with
            the Recovery Act’s Buy American provisions. This contract was open for inspection,
            copying and/or critiquing before and during the project. Upon discovery of foreign-



12-R-0601                                                                                      12
            made steel borehole casing in August 2010, PWT immediately implemented a
            corrective action plan to address the discovery and prevent any future occurrences.
            PWT required the construction subcontractor to segregate, sequester, and remove all
            steel borehole casing discovered on site that could not be definitively documented to
            be of domestic origin (melted and manufactured documentation), and suspended all
            payments (totaling $88,712) to the construction subcontractor for such casing. PWT’s
            prompt remedial conduct met the expectations of the Recovery Act and the contract.
            Further, PWT had no information that the subcontractor was one who had been
            noncompliant in the past.
            PWT trained all PWT field personnel on rigorous inspection, documentation, and
            reporting procedures, and immediately implemented said procedures to prevent any
            such occurrence in the future. The event was one-of-a-kind on the project and in
            PWT’s history. There were no other incidents related to the Buy American provisions
            of the Recovery Act for the duration of the project.
      o	 Davis-Bacon Wage Act Provisions: PWT’s subcontracts with the construction
         subcontractors included specific language requiring compliance with all provisions of
         the DBA, and all relevant FAR clauses implementing the Recovery Act provisions
         applicable to the DBA. Included in the subcontracts with the construction
         subcontractors were specific requirements for prior notification and approval of all
         lower-tier subcontractors, as well as requirements for inclusion of all flowdown
         provisions into all lower-tier subcontracts.
            To ensure compliance with the DBA, PWT conducted field audits of subcontractor
            personnel employed on the project, and has audited and verified the certified payrolls
            submitted by the construction contractor and all the lower-tier subcontractors and
            vendors, including the cement pumper operator.
   B. The second sentence of the summary states, “As a result, ineligible grouting pipe costs of
      $88,712 and unsupported field inspection costs of $260,923 were incurred under the
      project.”

      RESPONSE: As mentioned, PWT immediately suspended all payments of the $88,712
      to the construction subcontractor. PWT received formal notification from the Contracting
      Officer on January 10, 2012, that the $88,712 should be withheld and to reduce funding
      for the project accordingly. PWT is working with the Contracting Officer to deobligate
      $88,712 in budget and funding from the project.

      In addition, PWT submitted to EPA on December 2, 2011, and the EPA Contracting
      Officer accepted and approved for recovery from PWT on January 9, 2012—prior to
      issuance of the Draft Report—total costs for field inspections related to the ineligible
      grouting pipe of $2,550.64 (two-thousand-five-hundred-fifty-and-sixty-four-one-
      hundredths dollars). The Contracting Officer’s correspondence of January 9, 2012 with
      PWT states:

            “EPA is in agreement with PWT's estimate regarding Cost Recovery at the
            Gilt Edge Mine Site for the oversight of the foreign made pipe. PWT is to
            reduce their costs associated with this work assignment by $2,550.64, which


12-R-0601                                                                                        13
            represents PWT's best estimate of the oversight costs for ARRA Buy-
            American compliance certification.”

      Please note that PWT has completed the cost recovery process and provided the
      $2,550.64 in recovered costs to EPA.

      PWT is a contractor committed to high quality federal work; it has adhered to the
      contracting provisions. PWT contends that the statement, “As a result, ineligible grouting
      pipe costs of $88,712 and unsupported field inspection costs of $260,923 were incurred
      under the project,” should be revised based on the foregoing facts and in conjunction with
      the OIG’s statement on Page 6 that states, “If PWT identifies the actual costs related to
      Buy American compliance monitoring, we will adjust the questioned amount
      accordingly.” PWT respectfully requests that this sentence and similar sentences
      elsewhere in the draft report (such as in the section titled “At a Glance”) be revised to
      read:

            “As a result of the issues noted above, we questioned costs of ineligible pipe
            costs of $88,712, payments for which had been immediately suspended by
            PWT, and which are in the process of being deobligated from the project. In
            addition, we also questioned PWT field inspection costs of $2,550.64
            associated with Buy American compliance monitoring.”

II. RECOMMENDATIONS

   1.	 PWT field inspection costs.

      RESPONSE: As related above, PWT submitted to EPA on December 2, 2011, and the
      EPA Contracting Officer accepted and approved for recovery from PWT on January 9,
      2012—prior to issuance of the Draft Report—total costs for field inspections related to
      the ineligible grouting pipe of $2,550.64. The Contracting Officer’s correspondence of
      January 9, 2012 with PWT (see attached) states:

            “EPA is in agreement with PWT's estimate regarding Cost Recovery at the
            Gilt Edge Mine Site for the oversight of the foreign made pipe. PWT is to
            reduce their costs associated with this work assignment by $2,550.64, which
            represents PWT's best estimate of the oversight costs for ARRA Buy-
            American compliance certification.”

      While PWT believes that quantum meruit principles should attach to all monetary
      adjustments, as of February 16, 2012, PWT has paid to EPA the cost recovery
      amount of $2,550.64. PWT respectfully requests that the Recommendations state,
      “1. Recover PWT field inspection costs of $2,550.64.”

   2.	 Advise the contracting officer to designate the grouting pipe costs of $88,712 as 

       ineligible costs under the contract and to reduce the project funding accordingly.





12-R-0601                                                                                    14
       RESPONSE: PWT had immediately suspended the $88,712 as of August 2010. PWT
       received formal notification from the Contracting Officer on January 10, 2012 that the
       $88,712 on which PWT had suspended payment should be withheld, and to reduce
       funding for the project accordingly. PWT has been working with our Contracting Officer
       to deobligate $88,712 in budget and funding from the project.

   3.	 Require PWT to ensure that PWT staff is trained on contract terms and conditions,
       including Recovery Act requirements.

       RESPONSE: While PWT employees are informed of contract terms and conditions at
       the time work assignments are received and at initiation of projects, PWT has
       strengthened its training procedure for contract terms and conditions. PWT training
       requirements have been identified and documented in its policies and procedures. PWT
       has also held training sessions regarding contract terms and conditions, including
       Recovery Act requirements.

   4.	 Require PWT to verify that all subcontractors and vendors comply with DBA 

       requirements. 


       RESPONSE: PWT conducted field audits of the subcontractor personnel employed on
       the project and has audited and verified the certified payrolls submitted by the
       construction contractor and all the lower-tier subcontractors, including vendors.

       PWT has strengthened its training program to ensure that all its project managers are
       aware of the need to determine that all potential service providers that may be engaged by
       a subcontractor for any federally-funded projects are approved by PWT in advance, that
       all such service providers are notified of their responsibility to comply with the
       provisions of the DBA, and that the certified payrolls of all such service providers are
       provided to PWT covering all personnel engaged at or on the site of the work in excess of
       the de minimis standards established by Department of Labor guidance for deliveries and
       other services that are wholly incidental to the fundamental nature of the project.

III. OTHER
       Statements regarding unsupported field inspection costs. PWT respectfully requests
       that the statements regarding unsupported field inspection costs be revised to reflect the
       agreed to cost recovery of $2,550.64 that was accepted by the Contracting Officer on
       January 9, 2012, prior to issuance of the Draft Report. The locations where this is
       discussed include:
       a.	   At a Glance, What We Found, 3rd Paragraph.
       b.	   At a Glance, What We Recommend.
       c.	   Summary of Results, 1st paragraph, page 3.
       d.	   Buy American Compliance, 1st paragraph, page 3.
       e.	 Costs Associated with the Buy American Noncompliance, 3rd paragraph, 2
           times, page 6.



12-R-0601                                                                                      15
       f.	 Recommendations, 1., Page 9.
       g.	 Status of Recommendations and Potential Monetary Benefits, Rec. No. 1,
           page 10.

If you have any questions regarding this response, please call me at (303) 274-5400 x18.

Respectfully submitted,




Dr. Tai-Dan Hsu, Ph.D. 

President and Chief Executive Officer 

Pacific Western Technologies, Ltd. 

Enclosures 

cc: File
       James Abrams, Ph.D., J.D.




12-R-0601                                                                                  16
                                                                              Appendix B

                                   Distribution
Office of the Administrator
Assistant Administrator, Office of Administration and Resources Management
Regional Administrator, Region 8
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Director, Office of Acquisition Management, Office of Administration and Resources
       Management
Director, Grants and Interagency Agreements Management Division,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Superfund/RCRA Regional Procurement Operations Division, Office of Acquisition
       Management, Office of Administration and Resources Management
President, Pacific Western Technologies, Ltd.




12-R-0601                                                                                17
